APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals
for the Fifth Circuit (March 22, 2021) ............... 1a
Judgment of the United States District Court
for the Northern District of Texas
(December 19, 2019) ......................................... 27a
Order Accepting Report and Recommendation
of the United States Magistrate Judge and
Adjudging Defendant Guilty (June 13, 2019) . 33a
Report of Action and Recommendation on Plea
Before the United States Magistrate Judge
(May 29, 2019) .................................................. 35a
CASE DOCUMENTS
Felony Information
(May 20, 2019) .................................................. 38a
Sentence Hearing–Relevant Excerpt
(December 17, 2019) ......................................... 40a
CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitutional Provision ......................................... 55a
Statutory Provisions ............................................... 56a

App.1a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
(MARCH 22, 2021)
PUBLISHED
991 F.3d 652 (5th Cir. 2021)
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
BUCK GENE BRUNE,

Defendant-Appellant.
________________________
No. 19-11360
Appeal from the United States District Court for the
Northern District of Texas No. 4:19-CR-159-1
Before: JONES, SMITH,
and ELROD, Circuit Judges.
JERRY E. SMITH, Circuit Judge:
Buck Brune is a methamphetamine (“meth”)
dealer. In charging him, the government accidentally
cited the wrong statutory subparagraph. After Brune
had pleaded guilty, the court copied that error into

App.2a
its order accepting his plea but later corrected it. The
court applied a sentencing enhancement on the ground
that some of Brune’s meth was imported. Brune contends that the court’s correction of the erroneous
citation amounted to double jeopardy and that the
enhancement was erroneous. We find no error and
affirm.
I.
Brune distributed at least 50-75 pounds of meth
over nine months. For five months, he sold half a
pound of meth to one coconspirator each day. His
supplier was “a member of the Michoacán Cartel based
in Dallas, Texas.”1 Brune concedes that that cartel
“borrow[s] its name from a state in Mexico.”
The government filed a one-count information
based on the conspiracy provision of 21 U.S.C. § 846,
charging Brune with conspiracy to violate “21 U.S.C[.]
§§ 841(a)(l) and (b)(l)(C), namely to possess with intent
to distribute a mixture and substance containing
more than 50 grams of methamphetamine.” But the
information cited the wrong part of § 841(b)(1): Subparagraph B—not C—criminalizes possession of a
substance containing more than 50 grams of meth.
In contrast, subparagraph C provides “the baseline
statutory penalty for any quantity of methamphetamine.” United States P. Doggett, 230 F.3d 160, 166
(5th Cir. 2000) (emphasis added). Subparagraph B’s
penalty range is 5 to 40 years, § 841(b)(1)(B); subparagraph C’s is 20 years or less, § 841(b)(1)(C). The parties
1 Although that statement makes it unclear whether the cartel
or the member is based in Dallas, Brune agrees that “his source
was [sic] Michoacán cartel member based in Dallas, Texas.”

App.3a
agree that subparagraph C is a lesser-included offense
of subparagraph B.
Despite that initial error and without any plea
agreement, Brune pleaded guilty to subparagraph
B,2 referencing it nine times. For instance, Brune’s
factual resume cited subparagraph B, twice indicated
that Brune was subject to its penalty range, and
twice parroted its 50-gram threshold. Brune’s waiver
of indictment also cited subparagraph B. At arraignment, Brune admitted he understood its elements
and penalty range. His lawyer admitted that “the
intention of the parties was for Mr. Brune to enter a
guilty plea to that offense, which was in the factual
resume, and that would be a five to 40 count”—
namely subparagraph B.
In recommending that the district court accept
Brune’s guilty plea, however, the magistrate judge
copied the information’s erroneous citation. The district court adopted that recommendation, accepted the
plea, and adjudged Brune guilty. Thus, the presentence
investigation report came back with subparagraph
C’s “maximum term of imprisonment,” namely “20
years,” even though it should have been 40 years
under subparagraph B. The government raised two
objections.
First, the government noted that Brune pleaded
guilty to subparagraph B—not C. Brune countered,
contending, inter alia, that modification of the court’s
order accepting his plea would violate the prohibition
against double jeopardy. The district court rejected
2 We use “pleaded guilty to subparagraph B” as a shorthand
way of denoting his guilty plea of conspiracy to violate that
provision.

App.4a
Brune’s contentions and amended its order to reflect
that it was accepting Brune’s guilty plea to subparagraph B.
Second, the government requested a sentencing
enhancement for an offense involving “importation
of . . . methamphetamine,” which would raise Brune’s
offense level by two.3 Brune countered that there was
insufficient evidence for that enhancement, because
Brune’s supplier was “based in Dallas.” The court
found there was sufficient evidence that Brune
conspired to possess meth that “originated in . . .
Mexico.”
II.
The government contends that jeopardy never
attached.4 Our review is de novo. United States v.
Dugue, 690 F.3d 636, 637-38 (5th Cir. 2012) (per
curiam). We (A) determine that jeopardy does not
always attach upon acceptance of a guilty plea, (B)
explain the framework for analyzing attachment under
Ohio v. Johnson, 467 U.S. 493 (1984), and (C) apply
that framework. There was no double-jeopardy violation.

3 U.S.S.G. § 2D1.1(b)(5). With that enhancement, the recommended
sentence was 360 to 480 months. Without it, the recommended
sentence would have been 292 to 365 months.
4 At oral argument, the government also said that “[t]his is not
a case involving successive prosecutions.” We do not decide
whether modification of an order accepting a guilty plea, which
contains a clerical error, constitutes a successive prosecution,
because Brune’s double-jeopardy theory fails in any event.

App.5a
A.
“No person shall be . . . subject for the same offence
to be twice put in jeopardy of life or limb.” U.S.
Const. amend. V. To violate that clause, the initial
prosecution must have “put [the defendant] in jeopardy.” Id. That inquiry becomes important where
the initial prosecution gets derailed.
If a trial gets derailed, it still puts the defendant
in jeopardy if jeopardy (1) attached and (2) terminated.5
Attachment refers to the “point in criminal proceedings
at which [double-jeopardy] purposes and policies are
implicated.” Serfass v. United States, 420 U.S. 377,
388 (1975). For instance, in a jury trial, attachment
occurs “when the jury is empaneled and sworn.” Crist
v. Bretz, 437 U.S. 28, 38 (1978). Termination means
that double jeopardy does not bar a second prosecution
where “criminal proceedings against an accused have
not run their full course.” Justs. of Bos. Mun. Ct. v.
Lydon, 466 U.S. 294, 308 (1984) (quotation marks
and citation omitted). For instance, a mistrial for a
deadlocked jury does not terminate jeopardy, see
Richardson v. United States, 468 U.S. 317, 323-24
(1984), but an acquittal does, see Lydon, 466 U.S. at
308.
Where a guilty plea gets derailed, the Supreme
Court has neither identified a precise moment of
attachment6 nor applied the concept of termination.7
5 See Sattazahn v. Pennsylvania, 537 U.S. 101, 106 (2003); 6 Wayne
R. Lafave et al., Criminal Procedure § 25.1(d)-(e) (4th ed. 2020).
6 “[J]eopardy attache[s] at least when [a defendant] [is] sentenced.”
Ricketts v. Adamson, 483 U.S. 1, 8 (1987).
7 We found only one state court that has applied termination to
guilty pleas. See People v. Cabrera, 932 N.E.2d 528, 538–39 (Ill.

App.6a
That reticence left lower courts to fill in the gaps.
Because acceptance of a guilty plea is arguably analogous to a jury verdict, courts initially intuited that
jeopardy attaches upon acceptance of a guilty plea.8
For instance, in our first foray into the issue, in United
States v. Sanchez, 609 F.2d 761, 762 (5th Cir. 1980),
we agreed that “[j]eopardy attaches with the acceptance
of a guilty plea.” Relying solely on a now-abrogated,
out-of-circuit case,9 we provided no reasoning for
that conclusion.
It is no surprise, then, that four years later,
the Supreme Court “effectively reject[ed] the double
jeopardy concerns expressed . . . in Sanchez.”10 In
Johnson, 467 U.S. at 494, the government charged
the defendant with two sets of greater and lesserincluded offenses. Johnson pleaded guilty—over the
government’s objection—of the two lesser-included
offenses, then moved to dismiss the greater offenses
on double-jeopardy grounds. Id. In rejecting that claim,

App. Ct. 2010). We know of no federal court that expressly
applied termination to plea proceedings. And, as noted below,
Johnson’s test does not resemble the test for termination. See
Part II.A.2.b, infra. Moreover, neither party asks us to apply
termination, so we decline to invoke that concept here.
8 See, e.g., United States v. Jerry, 487 F.2d 600, 606 (3d Cir. 1973)
(“Jerry must be considered to have been convicted by the entry
of his plea of guilty just as if a jury had found a verdict of guilty
against him.”).
9 See Sanchez, 609 F.2d at 762 (citing Jerry, 487 F.2d at 606);
see also Gilmore v. Zimmerman, 793 F.2d 564, 571 (3d Cir. 1986)
(concluding that Jerry “is inconsistent with . . . Johnson”).
10 United States v. Foy, 28 F.3d 464, 471 n.13 (5th Cir. 1994).
The government acknowledges that that statement is dictum.

App.7a
the Court applied two concepts that relate to attachment and termination.
First, although attachment occurs where doublejeopardy “purposes and policies are implicated,” Serfass,
420 U.S. at 388, Johnson, 467 U.S. at 501, concluded
that no double-jeopardy interest “is implicated” in
the “acceptance of a guilty plea to lesser included
offenses while charges on the greater offenses remain
pending.” Thus, although Sanchez had suggested the
opposite,11 double jeopardy did not bar prosecution of
a greater offense after a plea of a lesser-included
offense.
Second, the Court applied a rationale reminiscent
of termination’s requirement that proceedings “run
their full course” before a defendant can successfully
invoke double jeopardy. Lydon, 466 U.S. at 308 (quotation marks and citation omitted). Specifically, in
Johnson, 467 U.S. at 502, the Court sought to ensure
that the government has “one full and fair opportunity to convict those who have violated its laws.”
Thus, instead of expressly determining whether
jeopardy attached and terminated, the Court analyzed
(1) “finality” and (2) “prevention of prosecutorial
overreaching,” concluding that “[n]o interest . . . protected by the Double Jeopardy Clause [was] implicated”
in that situation. Id. at 501. Although that framework
differs from the attachment and termination bookends
that the Court employs when examining a trial,
Johnson recognized differences between guilty pleas
11 See Sanchez, 609 F.2d at 762 (“[A]cceptance of a guilty plea
to [a lesser-included] charge would bar later prosecution on the
[greater] charge.”).

App.8a
and trials.12 Specifically, guilty pleas provide prosecutors no “opportunity to marshal [their] evidence
and resources.” Id. A defendant can plead guilty even
over the government’s objection. Id. at 494. That
distinction undermines the assumption of lower
courts—which infected Sanchez—that guilty pleas
are relevantly analogous to jury verdicts and that
jeopardy, therefore, attaches upon acceptance of a
guilty plea.
Nonetheless, our opinions have continued to recite
Sanchez’s rule that jeopardy attaches upon acceptance
of a guilty plea.13 We must decide whether Johnson
abrogated that statement. Brune contends that, under
Sanchez, jeopardy attaches upon acceptance of a
guilty plea. The government contends that Johnson
rejected Sanchez’s double-jeopardy concerns, so jeopardy does not always attach upon acceptance of a
guilty plea. We agree because (1) Johnson abrogated
Sanchez’s statement about attachment, (2) Brune’s
counterarguments are not persuasive, and (3) the
rule of orderliness does not preclude that conclusion.
1.
Johnson abrogated Sanchez’s statement regarding
attachment. The First14 and Third15 Circuits agree
12 Cf. Johnson, 467 U.S. at 500 n.9 (concluding, in the context
of a collateral-estoppel claim based on the Double Jeopardy
Clause, that guilty pleas are “not the same as . . . adjudication[s] on the merits after full trial”)
13 See, e.g., United States v. Jones, 733 F.3d 574, 580 (5th Cir.
2013); see also Part II.A.3.b, infra.
14 See United States v. Santiago Soto, 825 F.2d 616, 619 (1st Cir.
1987).

App.9a
that, under Johnson, jeopardy does not always attach
upon acceptance of a guilty plea. The Second Circuit
implies that jeopardy attaches upon acceptance of a
guilty plea16 and treats Johnson as an exception to
that rule, which applies only where (1) the prosecutor
objects to a plea of a lesser-included offense and
(2) and the charge on the greater offense remains
pending. 17 The Sixth, Eighth, Ninth, Tenth, and
Eleventh Circuits either largely ignore Johnson18 or
skirt the issue.19
We conclude that jeopardy does not always
attach upon acceptance of a guilty plea. Two lines of
reasoning support that conclusion.

15 See Gilmore, 793 F.2d at 571.
16 See Morris v. Reynolds, 264 F.3d 38, 49 (2d Cir. 2001) (“[T]he
Supreme Court has established that, after a court accepts
defendant’s guilty plea to a lesser included offense, prosecution
for the greater offense violates the Double Jeopardy Clause.”).
17 See Morris, 264 F.3d at 49 (“In contrast, the Double Jeopardy
Clause is not offended when the greater offenses charged in the
indictment remain ‘pending’ at the time of a guilty plea, and
when the prosecution objects to the plea to a lesser included
offense.”).
18 See United States v. Bearden, 274 F.3d 1031, 1037–38 (6th
Cir. 2001); United States v. Baggett, 901 F.2d 1546, 1548 (11th
Cir. 1990); United States v. Patterson, 381 F.3d 859, 864 (9th
Cir. 2004); but see United States v. Patterson, 406 F.3d 1095,
1097 (9th Cir. 2005) (Kozinski, J., dissenting from denial of rehearing en banc).
19 See United States v. Wampler, 624 F.3d 1330, 1341 (10th Cir.
2010); Bally v. Kemna, 65 F.3d 104, 108 (8th Cir. 1995).

App.10a
a.
Sanchez’s rule about attachment is inconsistent
with Johnson. Under Sanchez, jeopardy attaches upon
acceptance of a guilty plea. Sanchez, 609 F.2d at 762.
Moreover, lesser-included and greater offenses constitute the “same offense” for double-jeopardy purposes.
Brown v. Ohio, 432 U.S. 161, 166 n.6 (1977). Thus, if
Sanchez were correct that jeopardy attaches upon
acceptance of a guilty plea of a lesser offense, then—
under Supreme Court precedent20—a successive prosecution for a greater offense would implicate doublejeopardy interests.21 Consequently, if jeopardy had
attached upon acceptance of Johnson’s guilty plea to
the lesser-included offense, then prosecution of him
for the greater offense would have had double-jeopardy
consequences.22
But the government’s prosecution of Johnson for
the greater offense did not invoke double-jeopardy

20 Attachment occurs where double-jeopardy “purposes and
policies are implicated.” Serfass, 420 U.S. at 388. It follows that,
if jeopardy attaches vis-à-vis a lesser-included offense, then
prosecution of a greater offense would have double-jeopardy
implications.
21 Sanchez, 609 F.2d at 762 (concluding that, because jeopardy
attaches upon acceptance of a guilty plea, “acceptance of a
guilty plea to [a lesser-included] charge would bar later prosecution on the [greater] charge”). Brune likewise contends that,
because jeopardy allegedly attaches upon acceptance of a guilty
plea, “[a]cceptance of a plea to a
22 See Patterson, 406 F.3d at 1097 (Kozinski, J., dissenting from
denial of rehearing en banc) (“If jeopardy had attached when
[Johnson] pled guilty to the lesser offenses, the Double Jeopardy
Clause would have barred the state from prosecuting him.”).

App.11a
interests. 23 It necessarily follows that jeopardy did
not attach upon the court’s acceptance of Johnson’s
guilty plea of the lesser-included offense. Thus, under
Johnson and contrary to Sanchez, jeopardy does not
always attach upon acceptance of a guilty plea.
The Third Circuit came to a similar conclusion.
Although the court had previously held that “jeopardy . . . attached with the acceptance of [a] guilty
plea,” Jerry, 487 F.2d at 606, the court later concluded
that Jerry’s statement about attachment was “only
an assumption,” which “is inconsistent with . . .
Johnson,” Gilmore, 793 F.2d at 571. Importantly, Jerry
was the sole basis for Sanchez’s statement that
jeopardy attaches upon acceptance of a guilty plea.
See Sanchez, 609 F.2d at 762 (citing Jerry, 487 F.2d
at 606).
In sum, Sanchez’s rule about attachment is inconsistent with Johnson. Moreover, Johnson abrogated
Sanchez’s sole buttress—Jerry. It is no surprise,
then, that Brune concedes that Sanchez and Johnson
are in conflict.24 lesser-included charge bars later
prosecution on the associated greater charge.”
b.
Johnson’s holding has the hallmarks of attachment, not some other facet of double jeopardy. For
instance, attachment occurs at the “point in criminal
23 See Johnson, 467 U.S. at 501 (concluding that “acceptance of
a guilty plea to lesser included offenses while charges on
the greater offenses remain pending” does not implicate any
“interest . . . protected by the Double Jeopardy Clause”).
24 Brune acknowledges that “Johnson limits . . . or gives some
exceptions to Sanchez.”

App.12a
proceedings at which [double-jeopardy] purposes
and policies are implicated.” 25 Consistently with
that concept, Johnson, 467 U.S. at 501, held that “[n]o
interest . . . protected by the Double Jeopardy Clause
is implicated” in that situation. Johnson’s focus on
the threshold inquiry—whether double jeopardy is
even implicated in the first place—thus sounds in
attachment.
Conversely, Johnson does not resemble an exception to the double-jeopardy prohibition.26 For instance,
where the Supreme Court applies such an exception,
it first “assume[s] that jeopardy attached” and then
asks whether an exceptional circumstance “removed
the double jeopardy bar.” Ricketts, 483 U.S. at 8.
Johnson neither assumed that jeopardy attached nor
used language about removing the double-jeopardy
bar.
Finally, although Johnson’s holding appears to
implement the policy behind termination, see Part
II.A, supra, it does not appear to engraft termination’s
legal test onto plea proceedings. For instance, to
establish that jeopardy did not terminate after a
trial, a prosecutor must show a “manifest necessity”
25 Serfass, 420 U.S. at 388; see also United States v. Jorn, 400
U.S. 470, 480 (1971) (“Thus the conclusion that ‘jeopardy attaches’
when the trial commences expresses a judgment that the constitutional policies underpinning the Fifth Amendment’s guarantee
are implicated at that point in the proceedings.”).
26 Brune’s counsel suggested at oral argument that Johnson
might constitute an exception to Sanchez’s rule about attachment—not to the double-jeopardy prohibition in general. And,
even if he is right in that interpretation of Johnson, we still
must apply Johnson’s framework to see whether that exception
would apply.

App.13a
to “retry the defendant.” Richardson, 468 U.S. at 32324 (quotation marks and citation omitted). Johnson did
not, however, employ anything akin to the manifestnecessity standard.27 In fact, the First and Third
Circuits, which had attempted to graft that standard
onto pleas, concluded that Johnson was inconsistent
with those precedents. See Soto, 825 F.2d at 619;
Gilmore, 793 F.2d at 571.
In short, Johnson’s holding has more to do with
attachment than with termination or an exception to
the double-jeopardy bar.
2.
Brune raises two counterarguments.28 Neither
is persuasive.
27 See Johnson, 467 U.S. at 494-502; Soto, 825 F.2d at 619
(concluding that, under Johnson, “it becomes unnecessary to
demonstrate ‘manifest necessity’ to warrant a judicial vacation
of a guilty plea”).
28 Additionally, Brune contends, for the first time in his reply
brief, that Sanabria v. United States, 437 U.S. 54, 69 (1978),
stands for the proposition that “final judgment as to one substantive charge contained in the single count of the information
bars future prosecution of [sic] other charge contained in the
same count.” “We ordinarily disregard arguments raised for the
first time in a reply brief.” Cotropia v. Chapman, 978 F.3d 282,
289 n.14 (5th Cir. 2020) (cleaned up). Even if he had properly
presented that argument, it would fail for two reasons.
First, the trial court acquitted Sanabria after trial had begun,
Sanabria, 437 U.S. at 59, and the Court concluded that “a
verdict of acquittal . . . may not be reviewed . . . without putting
the defendant twice in jeopardy,” id. at 64 (cleaned up). Here,
the court accepted Brune’s guilty plea—it did not acquit him.
Moreover, the acceptance of a guilty plea, at least where a
charge remains pending, “has none of the implications” of an

App.14a
a.
The Supreme Court said—about a century ago,
in a case that didn’t mention double jeopardy—that
“[a] plea of guilty . . . is itself a conviction.” Kercheval
v. United States, 274 U.S. 220, 223 (1927). And double
jeopardy prohibits “a second prosecution for the same
offense after conviction.” Johnson, 467 U.S. at 498
(quotation marks and citation omitted). Thus, if we
myopically weld those precedents together, the argument goes, attachment must occur upon the plea of
guilty, because that is when the conviction occurs.
See Morris, 264 F.3d at 49. The Johnson dissenters
made that sort of argument and lost. 29 It is no
surprise, then, that, besides its cameo in Morris, that
argument largely inhabits pre-Johnson concurrences30
and student notes.31 Brune raises it here, and it fails
for three reasons.
acquittal after trial has already begun. Johnson, 467 U.S. at
501-02. Second, the acquittal in Sanabria constituted a final
judgment. Sanabria, 437 U.S. at 72-73. But the court modified
its acceptance of Brune’s guilty plea before it sentenced him or
entered judgment.
29 See Johnson, 467 U.S. at 503 (Stevens, J., dissenting) (concluding that “a plea of guilty has the same legal effect as a conviction”
and that double jeopardy “prohibits prosecution of a defendant
for a greater offense when he has already been convicted on the
lesser included offense” (cleaned up)). That argument also made
a brief appearance in Ninth Circuit dictum. See United States v.
Smith, 912 F.2d 322, 324-25 (9th Cir. 1990).
30 See United States v. Combs, 634 F.2d 1295, 1300 (10th Cir.
1980) (McKay, J., concurring in part and dissenting in part).
31 Andrew Cassady, Comment, No Rest for the Weary: Double
Jeopardy Implications of Vacating a Defendant’s Guilty Plea, 81
U. Cin. L. Rev. 1539, 1551 (2013).

App.15a
First, that theory is inconsistent with Johnson.
If Johnson’s guilty plea of a lesser-included offense
constituted his conviction for double-jeopardy purposes,
then the government’s subsequent prosecution would
have implicated double-jeopardy interests. But the
subsequent prosecution did not do that. Johnson, 467
U.S. at 501. And, to the extent that Kercheval conflicts
with Johnson, we must follow Johnson as the Court’s
later pronouncement.
Second, Brune cherry-picks Kercheval’s language.
In Kercheval, 274 U.S. at 225, the Court had nothing
to say about double jeopardy; it concluded that evidence
of a withdrawn guilty plea is inadmissible at trial. In
any event, a more vigorous examination of Kercheval
undermines Brune’s argument. Although Brune notes
Kercheval’s statement that a guilty plea is “conclusive”
of guilt, he omits its observation that it would be
wrong to “hold [a withdrawn] plea conclusive.” Id. at
224. Kercheval even noted that, in some circumstances,
courts may “vacate a plea of guilty,” “substitute a
plea of not guilty,” and “have a trial.” Id. Brune does
not engage with any of that language. We thus
decline to graft Kercheval’s inapposite, cherry-picked
statement onto the double-jeopardy context in a
manner that undermines Johnson.
Third, Brune’s reasoning places more weight on
Kercheval’s use of “conviction” than it can bear. See
id. at 223. Because a judgment of conviction can
occur only after sentencing, FED. R. CRIM. P. 32(k)(1), a
“defendant ha[s] not been formally convicted” until

App.16a
“entry of judgment and sentencing on the accepted
guilty plea.”32
b.
Some scholars suggest that jeopardy attaches
where “the risks of injury” are sufficiently great.
LAFAVE ET AL., supra, § 25.1(d) (quotation marks and
citation omitted). Moreover, a guilty plea exposes a
defendant to risks, because it constitutes an admission
of material facts along with a waiver of myriad
rights. Combs, 634 F.2d at 1300 (McKay, J., concurring
in part and dissenting in part). Thus, Brune contends
that, “[w]ith the risk of a determination of guilt,
jeopardy attaches.” That argument fails for two reasons.
First, Brune confuses necessary and sufficient
conditions. Citing Serfass, 420 U.S. at 3992, he
contends that a risk of a determination of guilt is sufficient to show attachment.33 But he shrewdly omits
any quotation, because Serfass really says that,
32 Combs, 634 F.2d at 1298; see also Mitchell v. United States,
526 U.S. 314, 325 (1999) (rejecting the notion that “incrimination
is complete once guilt has been adjudicated,” if a “sentence has
yet to be imposed” (quoting Estelle v. Smith, 451 U.S. 454, 462
(1981)).
33 He also contends that jeopardy attaches whenever a procedure begins before a trier of fact who can determine guilt. He is
right that double jeopardy “does not come into play until a proceeding begins before a trier having jurisdiction to try the
question of the guilt or innocence of the accused.” Serfass, 420
U.S. at 391 (quotation omitted). But that does not mean that
identification of a procedure before a trier of fact is sufficient to
show attachment. For instance, procedures—such as motions
and opening statements—occur in front of a trier of fact before
jeopardy attaches in a bench trial. See Crist, 437 U.S. at 49
(Powell, J., dissenting).

App.17a
“[w]ithout risk of a determination of guilt, jeopardy
does not attach.” Id. Thus, Serfass said that risk is
necessary—not sufficient—to show attachment. That
makes sense, because, before trial, a defendant must
conduct motions and jury selection, which “may
decide the defendant’s case.” Crist, 437 U.S. at 49
(Powell, J., dissenting). Yet, even with exposure to
those risks, jeopardy does not attach until later. Id.
Thus, pointing to some risk of a determination of
guilt is not enough to show that jeopardy attaches.
Second, Brune’s single-minded focus on risks
ignores the government’s interest in completing its
prosecution. Yet, Johnson, 467 U.S. at 502, considered
it relevant that “ending prosecution now would deny
the State its right to one full and fair opportunity to
convict those who have violated its laws.” A singular
focus on risks would allow a defendant to place
himself in jeopardy—by pleading guilty—and thus
“use the Double Jeopardy Clause as a sword to
prevent the State from completing its prosecution.”
Id. Johnson, therefore, bars us from focusing on risk
to the exclusion of the government’s interest in
completing its prosecution.
3.
Given those considerations, jeopardy does not
always attach upon acceptance of a guilty plea.34 We
34 Accord Patterson, 406 F.3d at 1097 (Kozinski, J., dissenting
from denial of rehearing en banc); Soto, 825 F.2d at 620;
Gilmore, 793 F.2d at 571; Lafave et al., supra, § 25.1(d) (concluding
that the rule that jeopardy attaches upon acceptance of a guilty
plea is “an oversimplification, one that fails to speak to the
many situations in which a guilty plea will not bar further prosecution”).

App.18a
thus join the majority of circuits that have analyzed
the impact of Johnson and, in doing so, we affirm our
only previous analysis of that issue, namely that
Johnson “effectively reject[ed] the double jeopardy
concerns expressed . . . in Sanchez.” Foy, 28 F.3d at
471 n.13. The rule of orderliness does not preclude
that conclusion, because (a) Sanchez made pronouncements about attachment only in now-abrogated dicta,
and (b) none of our later opinions reciting Sanchez’s
rule about attachment grappled with whether Johnson
rejected Sanchez’s rule.
a.
Sanchez made conclusions about attachment only
in dicta. For instance, although Sanchez, 609 F.2d at
762, stated that “[j]eopardy attaches with the acceptance of a guilty plea,” the trial court accepted Sanchez’s
guilty plea only conditionally, so there was no doublejeopardy violation, id. at 763. Because any successive
prosecution occurred before acceptance of the guilty
plea, we needed only to conclude—as then-Judge
Gorsuch did in his analysis of that issue—that
jeopardy does not attach at least until acceptance of
a guilty plea.35
Because the broader assumption about attachment
was unnecessary to our decision, that “broad and
unnecessary language of [Sanchez] [can]not be

35 See Wampler, 624 F.3d at 1341 (“[J]eopardy does not attach
at least until the guilty plea is accepted, and perhaps not until even
later.” (emphasis added)); cf. Ricketts, 483 U.S. at 8 (“[J]eopardy
attache[s] at least when [a defendant] [is] sentenced.” (emphasis
added)).

App.19a
considered binding authority.” 36 Moreover, because
Johnson “implicitly overrule[d]” Sanchez’s statement
about attachment, “we have the . . . obligation to declare
and implement this change in the law.” Hines v.
Quillivan, 982 F.3d 266, 271 (5th Cir. 2020) (quotation
marks and citation omitted). In short, Sanchez’s
statements about attachment are abrogated dicta.
b.
We have repeated Sanchez’s rule about attachment
in three, post-Johnson, published cases. 37 None of
those opinions, however, grappled with whether
Johnson rejected Sanchez’s rule.38 And, under the
rule of orderliness, “[a]n opinion restating a prior
panel’s ruling does not sub silentio hold that the
prior ruling survived an uncited Supreme Court decision.” Gahagan v. United States Citizenship & Immigr.
Servs., 911 F.3d 298, 302 (5th Cir. 2018). Thus, “the
rule of orderliness has little persuasive force when
the prior panel decision at issue conflicts with a
Supreme Court case to which the subsequent panel
decision is faithful.” Kennedy v. Tangipahoa Par.
Libr. Bd. of Control, 224 F.3d 359, 370 n.13 (5th Cir.
2000). Because our prior opinions did not analyze
whether Johnson abrogated Sanchez’s rule about

36 Texaco Inc. v. Duhé, 274 F.3d 911, 920 n.13 (5th Cir. 2001)
(citing Kastigar v. United States, 406 U.S. 441, 454-55 (1972)).
37 See Jones, 733 F.3d at 580; United States v. Kim, 884 F.2d
189, 191 (5th Cir. 1989); Fransaw v. Lynaugh, 810 F.2d 518,
523 (5th Cir. 1987).
38 See Jones, 733 F.3d at 580; Kim, 884 F.2d at 191; Fransaw,
810 F.2d at 523.

App.20a
attachment, we are not bound by their rote recitations
of Sanchez’s rule.39
B.
Because jeopardy does not always attach upon
acceptance of a guilty plea, we next determine the
test for ascertaining when it attaches.
Johnson had to address that same question. Specifically, the Court had held that the Double Jeopardy
Clause barred prosecution of a greater offense after a
court accepted a guilty plea and sentenced for a
lesser-included offense. Brown, 432 U.S. at 169, 162.
39 See Gahagan, 911 F.3d at 302. The parties also debate the
district court’s statutory power to correct an erroneous citation
in an order accepting a guilty plea, but a “court may at any time
correct a clerical error in a[n] . . . order.” Fed. R. Grim. P. 36.
We have “used Rule 36 to correct errors in the judgment
relating to . . . the offense underlying a plea.” United States v.
Cooper, 979 F.3d 1084, 1089 (5th Cir. 2020), cert. denied, 2021
WL 1073631 (U.S. Mar. 22, 2021) (No. 20-7122).
Specifically, where a “judgment refers to the offense of conviction” as one offense, but “the record indicates that [the defendant] pleaded guilty to” another offense, that “reflects a clerical
error in the written judgment.” United States v. McCoy, 819 F.
App’x 262, 262 (5th Cir. 2020) (per curiam). Given the nine
references to subparagraph B, “the record indicates that
[Brune] pleaded guilty” to it. Id. Moreover, the “transcript of
the plea hearing makes clear that [Brune] pleaded guilty” of
subparagraph B, given its multiple references thereto. Cooper,
979 F.3d at 1089. Finally, the district court’s modification of its
order did not “contradict[] the court’s and the parties’ intentions
as to the judgment.” United States v. Crawley, 463 F. App’x 418,
421 (5th Cir. 2012) (per curiam). As Brune’s counsel frankly
admitted, “the intention of the parties was for Mr. Brune to”
plead guilty to subparagraph B. The district court had statutory
authority to correct its clerical error.

App.21a
Because Johnson also involved a successive prosecution
of a greater offense after a plea of a lesser-included
offense, the Court needed to distinguish Brown—
which implicated double jeopardy—from Johnson—
which did not. Johnson, 467 U.S. at 496. To do so,
the Court determined that “the principles of finality
and prevention of prosecutorial overreaching applied
in Brown” were absent in Johnson. Id. at 501.
Johnson thus “provided a framework . . . for determining whether jeopardy attaches when a defendant
pleads guilty.”40 Courts must examine “the twin aims
of the Double Jeopardy Clause: protecting a defendant’s finality interests and preventing prosecutorial
overreaching.” Patterson, 406 F.3d at 1097 (Kozinski,
J., dissenting from denial of rehearing en banc).
The Second Circuit disagrees, concluding that
the lodestar of Johnson’s analysis was the fact that
the greater charge remained pending at the time
Johnson pleaded guilty of the lesser-included offense.41
Johnson, however, used “pending” once. Johnson, 467
U.S. at 501. Moreover, it did so only within its analysis of finality and prosecutorial overreach. See id. To
be sure, whether a charge of a greater offense was
pending may prove relevant, but that was not the
Court’s guiding principle in distinguishing Brown.

40 Patterson, 406 F.3d at 1097 (Kozinski, J., dissenting from denial of rehearing en banc); see also Soto, 825 F.2d at 620 (examining the potential for prosecutorial overreach and a defendant’s
finality interests to determine whether jeopardy attached).
41 See Morris, 264 F.3d at 50 (“[T]he only question is whether
the felony charge was ‘pending.’”).

App.22a
C.
To determine whether jeopardy attached, we
consider (1) Brune’s finality interest and (2) prevention
of prosecutorial overreach.
1.
Johnson employed three considerations in ascertaining a defendant’s finality interest. None is present
here.
First, the Court asked whether the situation before
it involved any of the “implications of an implied
acquittal which results from a verdict . . . rendered
by a jury.” Id. at 501-02 (cleaned up). “The mere
acceptance of a guilty plea,” however, “does not carry
the same expectation of finality and tranquility that
comes with a jury’s verdict.” Soto, 825 F.2d at 620.
Moreover, given a court’s ability to correct errors, an
erroneous citation in an order accepting a plea does
not imply an acquittal. Fed. R. Crim. P. 36.
Second, Johnson asked whether “the State had
the opportunity to marshal its evidence and resources
more than once or to hone its presentation of its case
through a trial.” Johnson, 467 U.S. at 501. The government had no opportunity to marshal evidence
against Brune, however, because his plea proceedings
“[did] not involve the ordeal of a trial.” Soto, 825 F.2d
at 618.
Third, Johnson, 467 U.S. at 501, noted that the
charges of the greater offenses were pending, which
was relevant presumably because “Johnson could
have foreseen a prosecution on the pending charges,”
Soto, 825 F.2d at 619. Evidence abounds that Brune
foresaw a subparagraph B prosecution. His factual

App.23a
resume referenced subparagraph B five times, reciting
its citation, penalty range, and 50-gram threshold.
His waiver of indictment cited that subparagraph. At
his arraignment, the government referenced that subparagraph’s elements and penalty range. Finally,
Brune’s counsel conceded that “the intention of the
parties was for Mr. Brune to enter a guilty plea” to
subparagraph B. Given that evidence, Brune’s finality
interest is even more miniscule than that of the
defendant in Johnson: Johnson was merely on notice
of his greater offense; Brune intended to plead guilty
of his.
In short, Brune intended to plead guilty to
subparagraph B. Because the government botched its
citations, he now seeks “an undeserved windfall by
shaving” years off his sentence. Patterson, 406 F.3d
at 1095 (Kozinski, J., dissenting from denial of rehearing en banc). In other words, Brune seeks to “use
the Double Jeopardy Clause as a sword to prevent
the State from completing its prosecution” of subparagraph B—a contingency that Johnson sought to
avoid.42 Brune’s finality interest is nil.
2.
Johnson employed two considerations in identifying prosecutorial overreach. First, in Johnson, 467
U.S. at 501-02, there was no overreach where the
charge for the greater offense remained “pending.” In
contrast, some authorities suggest there might be
42 Johnson, 467 U.S. at 502. Brune suggests that Johnson is
limited to cases in which a defendant proactively games the
system—not where he passively stumbles across a windfall and
then invokes double jeopardy. Johnson, however, did not limit
its reasoning to defendants who proactively game the system.

App.24a
overreach where the government charges a defendant
“with a second crime after getting him to plead guilty”
with a plea agreement. 43 The government did not
bring new charges against Brune. Nor did it dupe
him with a plea agreement—there never was one to
begin with.
Second, Johnson, 467 U.S. at 502, considered
whether “ending prosecution now would deny the
[government] its right to one full and fair opportunity
to convict those who have violated its laws.” Because
Brune’s case has not gone to trial, and the government
has not dismissed the charge for subparagraph B,
the government has not yet had one full opportunity
to convict him of subparagraph B. And there’s nothing
unfair to Brune about that result: The government
seeks to prosecute him for the only charge to which
Brune himself pleaded guilty.
In sum, the Double Jeopardy Clause “was not
written or originally understood to pose an insuperable
obstacle to the administration of justice in cases”—
like Brune’s—“where there is no semblance of . . .
oppressive practices.” Currier P. Virginia, 138 S. Ct.
2144, 2149 (2018) (quotation marks and citation omitted). Correction of a typo isn’t oppressive.
Because Brune’s finality interest is low, and
there is no evidence of prosecutorial overreach, jeopardy

43 See Patterson, 406 F.3d at 1099 (Kozinski, J., dissenting from
denial of rehearing en banc); see also LaFave et al., supra, § 25.1(d)
(finding potential for prosecutorial overreach where the government prosecutes a greater offense after “enter[ing] into an
agreement that a greater charge will be dismissed in exchange
for the defendant’s plea to a lesser charge”).

App.25a
did not attach upon the court’s acceptance of Brune’s
guilty plea. There is no double-jeopardy violation.
III.
Brune avers that the district court clearly erred
in applying an “importation” sentencing enhancement.
We disagree.
Under U.S.S.G. § 2D1.1(b)(5), a court can increase
a defendant’s offense level by two if his offense
“involved the importation of . . . methamphetamine.”
“We review the district court’s factual determination
that an offense involved the importation of methamphetamine for clear error.” 44 We will find no clear
error so long as the court’s conclusion is “plausible in
light of the record read as a whole.” United States P.
Dinh, 920 F.3d 307, 310 (5th Cir. 2019) (quotation
marks and citation omitted).
Brune sold at least 50-75 pounds of meth over
nine months. His supplier was a member of the
Michoacán Cartel based in Dallas, and that cartel
borrows its name from a Mexican state. Those facts
support the inference that some of Brune’s drugs
were imported.45 The importation finding is “plausible

44 United States P. Nimerfroh, 716 F. App’x 311, 315 (5th Cir.
2018) (per curiam); see also United States P. Serfass, 684 F.3d
548, 550 (5th Cir. 2012).
45 See United States P. Castillo-Curiel, 579 F. App’x 239, 239
(5th Cir. 2014) (per curiam) (considering as relevant to application of the importation enhancement the fact that “the methamphetamine was associated with two Mexican drug cartels”).

App.26a
in light of the record read as a whole,” so there is no
clear error.46
AFFIRMED.

46 Dinh, 920 F.3d at 310 (quotation marks and citation omitted).
In an unpublished opinion, we concluded that “the mere reference to a cartel is [not] sufficient to prove by a preponderance of
the evidence that [a defendant] was dealing with imported
methamphetamine.” See Nimerfroh, 716 F. App’x at 316. Nimerfroh
is distinguishable because the cartel had not been identified,
but the evidence shows that Brune dealt specifically with the
Michoacán Cartel. Id.

App.27a
JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS
(DECEMBER 19, 2019)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________________________
UNITED STATES OF AMERICA
v.
BUCK GENE BRUNE
________________________
Case Number: 4:19-CR-159-Y(1)
Before: Terry R. MEANS,
United States District Judge.
On May 29, 2019, the defendant, Buck Gene
Brune, entered a plea of guilty to count one of the
one-count information. Accordingly, the defendant is
adjudged guilty of such count, which involves the
following offense:
Title & Section
21 U.S.C. § 846 (21 U.S.C. §§ 841(a)(1)
and (b)(1)(B))
Nature of Offense
Conspiracy to Possess with Intent to
Distribute a Controlled Substance

App.28a
Offense Concluded
February 28, 2019
Count 1
The defendant is sentenced as provided in pages
two through three of this judgment. The sentence is
imposed under Title 18, United States Code § 3553(a),
taking the guidelines issued by the United States
Sentencing Commission under Title 28, United States
Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special
assessment of $100.00 for one of the one-count information.
The defendant shall notify the United States
attorney for this district within thirty days of any
change of name, residence, or mailing address until
all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid.
Sentence imposed December 17, 2019.
/s/ Terry R. Means
United States District Judge
Signed December 19, 2019.

App.29a
IMPRISONMENT
The defendant, Buck Gene Brune, is hereby committed to the custody of the Federal Bureau of
Prisons to be imprisoned for a term of 288 months on
count one of the one-count information.
The Court recommends that the defendant participate in the Institution Residential Drug Abuse
Treatment Program, if eligible.
The defendant is remanded to the custody of the
United States marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant
shall be placed on supervised release for a term of
four years on count one of the one-count information.
While on supervised release, the defendant shall
comply with the standard conditions of supervision
adopted by the United States Sentencing Commission
at § 5D1.3(c) of the sentencing guidelines, and shall:
(1) not leave the judicial district without the
permission of the Court or probation officer;
(2) report to the probation officer in a manner
and frequency directed by the Court or probation officer;
(3) answer truthfully all inquiries by the probation officer and follow the instructions of
the probation officer;
(4) support the defendant’s dependents and meet
other family responsibilities;

App.30a
(5) work regularly at a lawful occupation unless
excused by the probation officer for schooling,
training, or other acceptable reasons;
(6) notify the probation officer within seventytwo (72) hours of any change in residence or
employment;
(7) refrain from excessive use of alcohol and
not purchase, possess, use, distribute, or
administer any narcotic or other controlled
substance, or any paraphernalia related to
such substances, except as prescribed by a
physician;
(8) not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
(9) not associate with any persons engaged in
criminal activity and not associate with any
person convicted of a felony unless granted
permission to do so by the probation officer;
(10) permit a probation officer to visit the
defendant at any time at home or elsewhere
and permit confiscation of any contraband
observed in plain view by the probation
officer;
(11) notify the probation officer within seventytwo (72) hours of being arrested or questioned
by a law enforcement officer;
(12) not enter into any agreement to act as an
informer or a special agent of a law enforcement agency without the permission of the
Court;

App.31a
(13) notify third parties of risks that may be
occasioned by the defendant’s criminal record
or personal history or characteristics, and
permit the probation officer to make such
notifications and to confirm the defendant’s
compliance with such notification requirement, as directed by the probation officer;
(14) not commit another federal, state, or local
crime;
(15) not possess illegal controlled substances;
(16) not possess a firearm, destructive device, or
other dangerous weapon;
(17) cooperate in the collection of DNA as directed
by the probation officer as authorized by the
Justice for All Act of 2004;
(18) report in person to the probation office in
the district to which the defendant is released
within 72 hours of release from the custody
of the Federal Bureau of Prisons;
(19) refrain from any unlawful use of a controlled
substance. The defendant must submit to
one drug test within 15 days of release from
imprisonment and at least two periodic
drug tests thereafter, as determined by the
court;
(20) provide to the probation officer complete
access to all business and personal financial
information; and
(21) participate in a program approved by the
probation officer for treatment of narcotic or

App.32a
drug or alcohol dependency that will include
testing for the detection of substance use,
abstaining from the use of alcohol and all other
intoxicants during and after completion of treatment,
contributing to the costs of services rendered (copayment) at the rate of at least $25 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of
incarceration because the defendant does not have
the financial resources or future earning capacity to
pay a fine or costs of incarceration.
Restitution is not ordered because there is no
victim other than society at large.
RETURN
I have executed this judgment as follows:
______________________________________
______________________________________
Defendant delivered on ______ to _______ at
_______, with a certified copy of this judgment.
_______________________
United States marshal
BY _______________________
deputy marshal

App.33a
ORDER ACCEPTING REPORT AND
RECOMMENDATION OF THE UNITED
STATES MAGISTRATE JUDGE AND
ADJUDGING DEFENDANT GUILTY
(JUNE 13, 2019)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________________________
UNITED STATES OF AMERICA
v.
BUCK GENE BRUNE (1)
________________________
Case Number: 4:19-CR-159-Y
Before: Terry R. MEANS,
United States District Judge.
The Court has reviewed all relevant matters of
record in this case, including especially (1) the Consent
to Administration of Guilty Plea and Allocution by
United States Magistrate Judge and (2) the Report of
Action and Recommendation on Plea Before the United
States Magistrate Judge. No objections to either
have been filed within fourteen (14) days of service in
accordance with 28 U.S.C. § 636(b)(1). Therefore, the
Court concludes that the report and recommendation
of the magistrate judge on the plea of guilty is correct, and it is hereby accepted by the Court. Accordingly, the Court accepts the plea of guilty, and
defendant is hereby adjudged guilty. The defendant’s

App.34a
sentence will be imposed in accordance with the Court’s
sentencing scheduling order.
SIGNED June 13, 2019.
/s/ Terry R. Means
United States District Judge

App.35a
REPORT OF ACTION AND
RECOMMENDATION ON PLEA BEFORE THE
UNITED STATES MAGISTRATE JUDGE
(MAY 29, 2019)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________________________
UNITED STATES OF AMERICA
v.
BUCK GENE BRUNE (01)
________________________
Case Number: 4:19-CR-159-Y
Before: Hal R. RAY, JR.,
United States Magistrate Judge.
This Report of Action on Plea is submitted to the
court pursuant to 28 U.S.C. § 636(b)(3). This case has
been referred by the United States district judge to
the undersigned for the taking of a guilty plea. The
parties have consented to appear before a United
States magistrate judge for these purposes.
The defendant appeared with counsel before the
undersigned United States magistrate judge who
addressed the defendant personally in open court
and informed the defendant of, and determined that
the defendant understood, the admonitions contained
in Rule 11 of the Federal Rules of Criminal Procedure.

App.36a
The defendant pled guilty to count one of the one—
count information charging defendant with the violation
of 21 U.S.C. § 846 (21 U.S.C. §§ 841(a)(1) and (b)(1)(C)).
The undersigned magistrate judge finds the following:
1.

The defendant, upon advice of counsel, has
consented orally and in writing to enter this
guilty plea before a magistrate judge subject
to final approval and sentencing by the
presiding district judge;

2.

The defendant fully understands the nature
of the charges and penalties;

3.

The defendant understands all constitutional
and statutory rights and wishes to waive
these rights, including the right to a trial by
jury and the right to appear before a United
States district judge;

4.

The defendant’s plea is made freely and
voluntarily;

5.

The defendant is competent to enter this
plea of guilty;

6.

There is a factual basis for this plea; and

7.

The ends of justice are served by acceptance
of the defendant’s plea of guilty.

Although I have conducted these proceedings,
accepted the defendant’s plea of guilty, and pronounced
the defendant guilty in open court, upon the defendant’s
consent and the referral from the United States district judge, that judge has the power to review my
actions in this proceeding and possesses final decision
making authority. Thus, if the defendant has any
objections to the findings or any other action of the

App.37a
undersigned he should make those known to the
United States district judge within fourteen days of
today.
I recommend that defendant’s plea of guilty be
accepted and that the defendant be adjudged guilty
by the United States district judge and that sentence
be imposed accordingly.
SIGNED May 29, 2019.
/s/ Hal R. Ray, Jr.
United States Magistrate Judge

App.38a
FELONY INFORMATION
(MAY 20, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________________________
UNITED STATES OF AMERICA
v.
BUCK GENE BRUNE (01)
________________________
Case Number: 4:19-CR-159-Y
The United States Attorney Charges:
COUNT ONE
CONSPIRACY TO POSSESS WITH INTENT TO
DISTRIBUTE A CONTROLLED SUBSTANCE
(VIOLATION OF 21 U.S.C. § 846)
Beginning in or before April 2018, and continuing
until in or around February 2019, in the Fort Worth
Division of the Northern District of Texas, and elsewhere, defendant, Buck Gene Brune, along with others
known and unknown, did knowingly and intentionally combine, conspire, confederate, and agree to engage
in conduct in violation of 21 U.S.C. §§ 841(a)(1) and
(b)(1)(C), namely to possess with intent to distribute
a mixture and substance containing more than 50
grams of methamphetamine, a Schedule II controlled
substance.

App.39a
In violation of 21 U.S.C. § 846 (21 U.S.C. §§ 841
(a)(l) and (b)(l)(C)).
Erin Nealy Cox
United States Attorney
/s/ Laura G. Montes
Assistant United States Attorney
Massachusetts State Bar No.
687739
801 Cherry Street, Suite 1700
Fort Worth, Texas 76102
Telephone: 817-252-5200
Facsimile: 817-252-5455

App.40a
SENTENCE HEARING
RELEVANT EXCERPT
(DECEMBER 17, 2019)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
________________________
UNITED STATES OF AMERICA
v.
BUCK GENE BRUNE
________________________
Criminal Action No. 4:19-CR-159-Y
Before: Terry R. MEANS,
United States District Judge.
[December 17, 2019; Transcript p. 5]
The Court grants the defendant’s motion for
downward variance for the reasons argued by
the defendant in his motion, or, actually, I find
that I should grant it.
Okay. Does the government have any objection or
evidence relating to my tentative findings?
MR. COLE [Counsel for United States]: Not related
to the tentative findings, Your Honor, no.
THE COURT: Okay. Does the defendant have any
objection or evidence relating to my tentative
findings?

App.41a
MR. COFER [Counsel for Defendant, Mr. Brune]:
Yes, sir.
THE COURT: Go ahead, sir.
MR. COFER: I will rely on my written objection
related to the importation of two levels, but then
as it relates to the statutory maximum, we
object for the reasons laid out in the written
objection. I, also, object at this time that to proceed on the five to 40 count would violate Mr.
Brune’s protection against double jeopardy under
the Fifth Amendment.
He has already been adjudicated by this Court of
the lesser included offense with a zero to 20
range, and so for the Court now to determine
that he will be adjudicated for the greater
offense violates his protections against double
jeopardy.
The Court directed the parties not to file an
objection or response to the addendum unless
additional facts were alleged. However, I would
draw the Court’s attention to a 1980 case from
the Fifth Circuit, United States versus Sanchez.
Although, the holding really doesn’t touch specifically on our case here, because the defendant’s prosecution is not barred in that instance
because the defendant consented to the withdrawal of his plea and, thereby, consented to
waiving double jeopardy, that case in Sanchez
does lay out the principle that adjudication,
based on a guilty plea of—or acceptance, rather
—the term used by the Court is jeopardy attaches
with the acceptance of a guilty plea. So jeopardy

App.42a
attached to Mr. Brune’s case when the Court
accepted his guilty plea.
Likewise, the case that is cited for that principle
is a Third Circuit case, and in that case the
Third Circuit back in ’73—it was just an unusual
circumstance. We had to dig pretty deep on
this.
THE COURT: Right.
MR. COFER: But back in ’73 recognizes the same
principle that jeopardy attaches with the acceptance of a plea, and in that case it talks about the
Court’s ability to—about waiving your right to
be placed in jeopardy and then—and the Court’s
ability to rescind or withdraw an order, and it
talks about the common-law rule that, so long as
the Court had jurisdiction to rescind or reform
an order, that the Court could do it, and it says
the Federal Rules of Criminal Procedure don’t
extinguish that common-law rule, which, generally, would not help my position. However, it
recognizes that in that specific instance, the
rules of criminal procedure had not addressed
the procedure in the way that the Court would
rescind or change an order in that regard. It was
a final—or it was an order allowing the withdrawal of a guilty plea.
In this instance we do have the Federal Rules of
Criminal Procedure. They lay out how the government is to challenge the Court’s order if it’s
incorrect, and the government did not avail
themselves of the procedure to ask the Court to
reform the order.

App.43a
And so the common-law rule that survives, absent
a conflict with the Rules of Criminal Procedure,
has an exception that the Court only is able to
make that reformation of order if the party
seeking it has exercised due diligence, and in
this instance, the government has not done that.
They didn’t do it within the timeline prescribed
by the rules. Even once everything was pointed
out to them in the PSR and by Mr. Brune’s
objection, they still didn’t file a motion asking
the Court to reform the order.
So at this point, to go forward, one, violates Mr.
Brune’s rights against not being twice put into
jeopardy for the same offense, but, Your Honor, I
don’t know that the Court, based on the Rules of
Criminal Procedure, has the—should have the
power to go back and reform or rescind the order
adjudicating Mr. Brune.
THE COURT: What does that order—I don’t have it
in front of me. Does that order recite C or B?
MR. COFER: C.
THE COURT: Okay.
MR. COFER: And so—and it is from that order, I
believe—actually, I can’t be sure whether the
probation officer took the code provision from
the information or from the order.
THE COURT: So you don’t have the order adjudicating
guilt in front of you right now?
MR. COFER: Oh, I do, Your Honor.
I was saying that I don’t know which the probation
officer relied on.

App.44a
THE COURT: Well, if they relied on the information—
MR. COFER: Perhaps, I don’t.
THE COURT: —it relied on the waiver or the factual
resume, it was B?
MR. COLE: Your Honor, may I speak?
THE COURT: Yes, sir.
MR. COLE: I’m looking at Document 109, which is
the order accepting the Court recommendation
of the United States Magistrate Judge. Is that
the order you’re—
THE COURT: That’s the order I’m asking about.
MR. COFER: No, Your Honor. That order does not
recite the code provision.
THE COURT: Either way?
MR. COFER: Either way. It merely adopts the report
and recommendation of Judge Ray, which does
cite (b)(1)(C).
MR. COLE: Your Honor, it is Document 106, is the
report and recommendation of the magistrate
judge, which recites (b)(1)(C).
THE COURT: (b)(1)(C)?
MR. COLE: Yes, Your Honor.
THE COURT: Okay. Is there anything in the transcript
that gives any indication either way?
MR. COFER: Yes, Your Honor. Without a doubt, the
transcript will reflect the intention of the parties
was for Mr. Brune to enter a guilty plea to that

App.45a
offense, which was in the factual resume, and
that would be a five to 40 count.
You know, I mean, it’s analogous to the jury just
filling out the wrong verdict form and then the
Court accepting that verdict. You know, regardless
of the intention of the parties—I mean, I intend
to get Mr. Brune a 15 year sentence today. So if
the Court is going to rely on intentions, I would
like for you to rely on that one.
THE COURT: Okay.
MR. COFER: It doesn’t have any effect on the legal
posture. The rule of law will be that Mr. Brune
was adjudicated and jeopardy attached.
THE COURT: Okay. It sounds like a good practice
run for the Fifth Circuit, but let’s hear what Dan
has to say.
MR. COLE: Thank you, Your Honor. A couple of
matters here.
First, this Court holds ultimate jurisdiction–not the
magistrate. This is the Court that holds jurisdiction
over the guilty plea, and this is the Court that
will adjudicate him.
The Court holds the absolute right to review any
decision by the magistrate de novo with or
without the request of the parties, and I would
direct the Court’s attention, as Ms. Montes noted
in her response to the defendant’s objection, to the
second to the last paragraph of Rule 59. It says,
despite—and we’re speaking right now that the
government did not file a motion requesting the
Court to correct the magistrate’s error.

App.46a
The government did immediately bring to the
parties’s attention and the Court’s attention by
filing its objection to the presentence report
saying the presentence report is wrong. It should
be five to 40, and it was at that point that Laura
Montes recognized the typo in the information.
So, first, there was no waiver or—there wasn’t
even, I would say, incompetence on the government’s part in not filing a motion. She did notify
all the parties. It was just through the response
to the original objection to the PSR.
THE COURT: Mr. Cole, let me interrupt. Don’t lose
your place, but I need to interrupt before I forget
what I want to say.
In the colloquy between—of course, I didn’t do
this. Judge Ray did it. In the colloquy between
the Court and the parties, there is typically a
point at which the Court requires the U.S. Attorney to set out the potential penalties to which
the defendant is—to the crime to which he is
pleading guilty.
Is there agreement between the parties that when
that happened, it was stated to be a five to 40
offense?
MR. COLE: I would have to rely on Mr. Cofer because I wasn’t present, but I assume that it
was because—
THE COURT: Well, he was there. Let’s see what he
says.
MR. COFER: I was present, Your Honor, and that is my
recollection.

App.47a
THE COURT: He was told five to 40 years?
MR. COFER: That is correct, Your Honor.
THE COURT: So at that point nobody thought that it
was two to ten or under ten, whatever it was?
MR. COFER: That’s right.
THE COURT: Okay.
MR. COFER: And Ms. Montes argues in her response
to my objection, basically, that the plea was
voluntary, and that’s not the issue.
THE COURT: No, it’s not.
MR. COLE: And, Your Honor, I would since we’re
speaking of the factual resume and colloquy, the
factual resume does correctly cite (b)(1)(B), and
that is the document that the defendant signed.
THE COURT: It does, and so does the waiver. The
waiver of indictment says (b)(1)(B), also.
MR. COLE: But the Court, under the second to the
last paragraph of the advisory committee notes
to Rule 59, states that the district judge retains
the authority to review any magistrate judge’s
decision or recommendation whether or not
objections are timely filed and the discretionary
view is in accord with the Supreme Court’s decision in Thomas v. —and Matthew v. Webber.
And both of those cases clearly state that ultimately this Court holds ultimate authority of
what to accept regarding a magistrate’s recommendation. So I would argue that jeopardy
attaches when this Court finally accepts a guilty
plea and that this Court retains the authority to
review what happened in front of the magistrate

App.48a
and make sure, what did the parties understand
they were—
THE COURT: Well, I think I agree with you. I will
say this, that you just said that jeopardy attaches
when the Court approves in the plea agreement,
but it’s inconsistent—not inconsistent. It’s unclear
what the determination was because, as you just
said, the order accepting the recommendation
does not refer to the statute.
MR. COLE: And so that’s where I would say, let’s
look at what the parties understood they were
pleading guilty to on that day. What did the
factual resume say? Was the penalty on the factual
resume the correct citation, is listed. The information, the substantive language of the information, is (b)(1)(B). The elements of the offense in
the factual resume that the defendant and the
attorney signed is (b)(1)(B). The maximum penalty and the stipulated facts are all (b)(1)(B) language.
And, furthermore, this is a citation error on the
information, and Rule 7(c)(2) states that, unless
a defendant was misled and, thereby, prejudiced,
neither an error in this citation or a citation
omission, is a ground to dismiss the indictment
or information or to reverse a conviction.
And here, clearly, from the factual resume I think
is evidence in and of itself what everybody
understood was happening, and this Court has
the right to review this de novo, to review the
defendant’s guilty plea de novo, to look at what
did all parties understand he was pleading

App.49a
guilty to, and it was (b)(1)(B). So I believe the
conviction should stand based on that.
Let’s see, if the Court could give me just a second?
THE COURT: Yes, sir.
(Brief pause in proceedings)
MR. COLE: That’s it, Your Honor.
THE COURT: All right.
MR. COFER: Your Honor, there was one matter I
didn’t want the Court to misunderstand.
THE COURT: All right.
MR. COFER: The Court mentioned a plea agreement
and if the Court would accept a plea agreement.
That’s not this case. The Court has not deferred
the decision as to whether to accept Mr. Brune’s
plea of guilty.
THE COURT: That’s true. I misspoke if I said that.
MR. COFER: And then, finally, one point in response
to Mr. Cole—or two points. I think he correctly
spoke that jeopardy does attach once the Court
has accepted the guilty plea. That’s already
happened. I think that’s correct.
Number two, Rule 59 does provide for the Court
to review the order or the report of the magistrate
judge, but Rule 59 does not give procedure for
the Court to rescind the order entered by the
district court, and regularity of proceedings the
presumption would be that the Court reviewed
the magistrate’s order and recommendation and
in entering that order, to adopt it, incorporate it
within the Court’s order.

App.50a
THE COURT: Hold on just a moment.
(Brief pause in proceedings)
MR. COLE: Your Honor, may I make a comment
briefly?
THE COURT: Yes, sir.
MR. COLE: While I also think that it is the Court’s
responsibility, not just to review the recommendation of a magistrate, but when there is a conflict
of some kind or a misunderstanding, to review
the entire record, and that in reviewing the entire
record of the guilty plea, this Court accepted the
guilty plea of the defendant, and so it would be
correct and appropriate for the Court to review
the entire record to determine what it is exactly
that the defendant was charged with and what
he pled guilty to, and the substantive language
of the information is what matters, according to
Rule 7, which is the (b)(1)(B) offense and the
factual resume in its entirety, was the acceptance of responsibility and a plea of guilty to
(b)(1)(B) by the defendant.
So that’s the entire record. The Court shouldn’t
make its decision off of one document by a magistrate. It should look at the entire record.
THE COURT: Well, let me focus in on the information,
which says in its body that he agreed to engage
in conduct in violation of 21, United States Code,
Sections 841(a)(1) and (b)(1)(C). That’s the
problem. It’s a “C” instead of a “B.”
But is there anything peculiar to the rest of the
information that makes it clear that that’s a

App.51a
typo in and of itself, such as, namely, to possess
more than 50 grams?
MR. COLE: Yes. That is the language of (b)(1)(B),
and that is (b)(1)(B) language.
THE COURT: In fact, it’s the 50 grams that makes it
the “B”?
MR. COLE: Yes, sir.
MR. COFER: Yes, Your Honor.
THE COURT: So if the information had said, in violation of 21, United States Code, Section 841,
said no more, namely, to possess with the intent
to distribute a mixture or substance containing
methamphetamine, we would have an ambiguity.
We don’t know if it’s “B” or “C,” but with the language in the information of, a mixture or substance containing more than 50 grams, we know
that it’s “B”?
MR. COLE: Yes.
THE COURT: I know he’s being charged with “B,”
though it says, apparently, erroneously and
accidentally, it says “C”?
MR. COFER: Yes. I believe it to be accidental, but it
says “C,” and, Your Honor—but, also, the Court
has an exercise talking about hypothetical information text, if you deleted a certain part. So if
you had the hypothetical text in the information
and it ended with the statute (b)(1)(B) and said
nothing more, it didn’t say an amount, well, that
would be sufficient. If there were ever an
indictment, that would be sufficient notice for
Mr. Brune to go to trial.

App.52a
THE COURT: Right.
MR. COFER: So the statute that is within the text is
not merely a citation as contemplated by Rule 7.
It contains—Rule 7 talks about the citation
that’s at the top of the information, 846, that’s
the citation. The statute that is within the text
of the information, it actually contains the required
mental state for conspiracy. If you took the
statute out completely, you wouldn’t have the
offense of conspiracy—I’m sorry. You wouldn’t
have any offense because it actually contains the
mental state for the possession with intent to
distribute. So it’s indispensable.
THE COURT: Okay. Hold on.
(Brief pause in proceedings)
THE COURT: Okay. Mr. Cole, did you get to say
everything you wanted to say?
MR. COLE: The last issue that I wanted to bring to
the Court’s attention—and, again, Ms. Montes—
I’m sorry. I didn’t want to waste the Court’s
time. Ms. Montes referenced this case in her
response to the defendant’s objections. But United
States versus Garcia, 954 F.2d 273rd, is referenced
in her response, and that case is almost exactly
on point.
And in that case you have, again, an erroneous
citation as an authority to a sentencing enhancement in an information, and the Fifth Circuit
held that, error in citation shall not be grounds
for dismissal of an indictment or information if
the error did not mislead the defendant to his
prejudice. It reflects the long-standing notion

App.53a
that the written statements contained in the
indictment, not the citation to the statute, are
the controlling feature of an indictment.
It goes on to say, incorrect citations of statutes
are harmless error under Rule 7(c)(3) unless a
defendant was misled to his prejudice, and,
clearly, from looking at the factual resume,
knowing how colloquies go in all of these, there
was no misleading here. Everybody understood
what the defendant was pleading guilty to.
THE COURT: I agree with the government.
The order accepting report of recommendation of
the United States Magistrate Judge and adjudging
the defendant guilty filed on June 13, 2019 as
Document 109 is, hereby, amended to read:
The Court accepts the plea of guilty to violation
21, United States Code, Section 846, and 21,
United States Code, Sections 841 and (b)(1)(B).
Both parties made a good argument, but the
government has the better of this, both under
Garcia and just under common sense. So that’s
the ruling of the Court.
With that, you may have other things you wanted
to bring up at this time where you’re objecting to
my tentative findings. Are there other matters
you wish to bring up?
MR. COFER: Your Honor, I believe, if I remember
correctly, the Court tentatively overruled the government’s objection related to aggravating role.
So I have nothing as it relates to that. And I’m
standing on my written objection for the import-

App.54a
ation, and I think this resolves the outstanding—
THE COURT: Okay. Thank you, sir.
MR. COLE: And the Court also indicated tentatively
that you intend to grant the motion for downward
variance?
THE COURT: Yes, sir, that’s correct.
MR. COLE: Very good.
THE COURT: I think the government said no objection
to the Court’s tentative findings. Is that correct?
MR. COLE: That’s correct, Your Honor.
THE COURT: Then I adopt as my final findings of
fact the statements of fact made in the presentence
report subject . . .

App.55a
CONSTITUTIONAL PROVISION INVOLVED
U.S. Const. Amend. V—Grand Jury Indictment
for Capital Crimes; Double Jeopardy; SelfIncrimination; Due Process of Law; Takings
without Just Compensation
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property,
without due process of law; nor shall private
property be taken for public use, without just
compensation.

App.56a
STATUTORY PROVISIONS
21 U.S.C. § 841
Prohibited Acts A
(a) Unlawful acts
Except as authorized by this subchapter, it shall
be unlawful for any person knowingly or intentionally—
(1) to manufacture, distribute, or dispense, or
possess with intent to manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess
with intent to distribute or dispense, a
counterfeit substance.
(b) Penalties
Except as otherwise provided in section 849,
859, 860, or 861 of this title, any person who
violates subsection (a) of this section shall be
sentenced as follows:
(1)
(A) In the case of a violation of subsection (a) of
this section involving—
(i)

1 kilogram or more of a mixture or substance containing a detectable amount
of heroin;

(ii) 5 kilograms or more of a mixture or substance containing a detectable amount
of—

App.57a
(I)

coca leaves, except coca leaves and
extracts of coca leaves from which
cocaine, ecgonine, and derivatives
of ecgonine or their salts have
been removed;

(II)

cocaine, its salts, optical and geometric isomers, and salts of isomers;

(III)

ecgonine, its derivatives, their salts,
isomers, and salts of isomers; or

(IV)

any compound, mixture, or preparation which contains any
quantity of any of the substances
referred to in sub clauses (I)
through (III);

(iii) 280 grams or more of a mixture or
substance described in clause (ii) which
contains cocaine base;
(iv) 100 grams or more of phencyclidine
(PCP) or 1 kilogram or more of a mixture
or substance containing a detectable
amount of phencyclidine (PCP);
(v) 10 grams or more of a mixture or substance containing a detectable amount
of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or
substance containing a detectable
amount of N-phenyl-N- [1- (2-phenylethyl ) -4-piperidinyl] propanamide or
100 grams or more of a mixture or
substance containing a detectable
amount of any analogue of N-phenyl-N-

App.58a
[1-(2-phenylethyl) -4-piperidinyl]
propanamide;
(vii) 1000 kilograms or more of a mixture or
substance containing a detectable
amount of marihuana, or 1,000 or more
marihuana plants regardless of weight;
or
(viii)50 grams or more of methamphetamine,
its salts, isomers, and salts of its
isomers or 500 grams or more of a
mixture or substance containing a detectable amount of methamphetamine, its
salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than
10 years or more than life and if death or
serious bodily injury results from the use of
such substance shall be not less than 20
years or more than life, a fine not to exceed
the greater of that authorized in accordance
with the provisions of title 18 or $10,000,000
if the defendant is an individual or $50,
000,000 if the defendant is other than an
individual, or both. If any person commits
such a violation after a prior conviction for
a serious drug felony or serious violent
felony has become final, such person shall
be sentenced to a term of imprisonment of
not less than 15 years and not more than
life imprisonment and if death or serious
bodily injury results from the use of such
substance shall be sentenced to life imprisonment, a fine not to exceed the greater of
twice that authorized in accordance with

App.59a
the provisions of title 18 or $20,000,000 if
the defendant is an individual or $75,000,000
if the defendant is other than an individual, or both. If any person commits a violation of this subparagraph or of section 849,
859, 860, or 861 of this title after 2 or more
prior convictions for a serious drug felony or
serious violent felony have become final,
such person shall be sentenced to a term of
imprisonment of not less than 25 years
and fined in accordance with the preceding
sentence. Notwithstanding section 3583 of
title 18, any sentence under this subparagraph shall, in the absence of such a prior
conviction, impose a term of supervised
release of at least 5 years in addition to
such term of imprisonment and shall, if
there was such a prior conviction, impose a
term of supervised release of at least 10
years in addition to such term of imprisonment. Notwithstanding any other provision
of law, the court shall not place on probation or suspend the sentence of any
person sentenced under this subparagraph.
No person sentenced under this subparagraph shall be eligible for parole during the
term of imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of
this section involving—
(i)

100 grams or more of a mixture or substance containing a detectable amount of
heroin;

App.60a
(ii) 500 grams or more of a mixture or substance containing a detectable amount
of—
(I)

coca leaves, except coca leaves and
extracts of coca leaves from which
cocaine, ecgonine, and derivatives
of ecgonine or their salts have
been removed;

(II)

cocaine, its salts, optical and
geometric isomers, and salts of
isomers;

(III)

ecgonine, its derivatives, their salts,
isomers, and salts of isomers; or

(IV)

any compound, mixture, or preparation which contains any
quantity of any of the substances
referred to in subclauses (I)
through (III);

(iii) 28 grams or more of a mixture or
substance described in clause (ii) which
contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP)
or 100 grams or more of a mixture or
substance containing a detectable
amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance
containing a detectable amount of
lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a detectable amount of
N-phenyl-N- [ 1- ( 2-phenylethyl ) -4-

App.61a
piperidinyl ] propanamide or 10 grams
or more of a mixture or substance
containing a detectable amount of any
analogue of N-phenyl-N-[1-(2-phenylethyl) -4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or
substance containing a detectable
amount of marihuana, or 100 or more
marihuana plants regardless of weight;
or
(viii) 5 grams or more of methamphetamine,
its salts, isomers, and salts of its isomers
or 50 grams or more of a mixture or
substance containing a detectable
amount of methamphetamine, its salts,
isomers, or salts of its isomers;
such person shall be sentenced to a term of
imprisonment which may not be less than 5
years and not more than 40 years and if
death or serious bodily injury results from
the use of such substance shall be not less
than 20 years or more than life, a fine not to
exceed the greater of that authorized in
accordance with the provisions of title 18 or
$5,000,000 if the defendant is an individual
or $25,000,000 if the defendant is other
than an individual, or both. If any person
commits such a violation after a prior conviction for a serious drug felony or serious
violent felony has become final, such person
shall be sentenced to a term of imprisonment which may not be less than 10 years
and not more than life imprisonment and if
death or serious bodily injury results from

App.62a
the use of such substance shall be sentenced
to life imprisonment, a fine not to exceed
the greater of twice that authorized in
accordance with the provisions of title 18 or
$8,000,000 if the defendant is an individual
or $50,000,000 if the defendant is other
than an individual, or both. Notwithstanding section 3583 of title 18, any sentence
imposed under this subparagraph shall, in
the absence of such a prior conviction,
include a term of supervised release of at
least 4 years in addition to such term of
imprisonment and shall, if there was such
a prior conviction, include a term of
supervised release of at least 8 years in
addition to such term of imprisonment.
Notwithstanding any other provision of
law, the court shall not place on probation
or suspend the sentence of any person
sentenced under this subparagraph. No
person sentenced under this subparagraph
shall be eligible for parole during the term
of imprisonment imposed therein.
(C) In the case of a controlled substance in
schedule I or II, gamma hydroxybutyric acid
(including when scheduled as an approved
drug product for purposes of section 3(a)(1)(B)
of the Hillory J. Farias and Samantha Reid
Date-Rape Drug Prohibition Act of 2000), or
1 gram of flunitrazepam, except as provided
in subparagraphs (A), (B), and (D), such
person shall be sentenced to a term of
imprisonment of not more than 20 years
and if death or serious bodily injury results

App.63a
from the use of such substance shall be
sentenced to a term of imprisonment of not
less than twenty years or more than life, a
fine not to exceed the greater of that authorized in accordance with the provisions of
title 18 or $1,000,000 if the defendant is an
individual or $5,000,000 if the defendant is
other than an individual, or both. If any
person commits such a violation after a prior
conviction for a felony drug offense has
become final, such person shall be sentenced
to a term of imprisonment of not more than
30 years and if death or serious bodily
injury results from the use of such substance
shall be sentenced to life imprisonment, a
fine not to exceed the greater of twice that
authorized in accordance with the provisions
of title 18 or $2,000,000 if the defendant is
an individual or $10,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18,
any sentence imposing a term of imprisonment under this paragraph shall, in the
absence of such a prior conviction, impose a
term of supervised release of at least 3
years in addition to such term of imprisonment and shall, if there was such a prior
conviction, impose a term of supervised
release of at least 6 years in addition to
such term of imprisonment. Notwithstanding any other provision of law, the court
shall not place on probation or suspend the
sentence of any person sentenced under the
provisions of this subparagraph which provide for a mandatory term of imprisonment

App.64a
if death or serious bodily injury results, nor
shall a person so sentenced be eligible for
parole during the term of such a sentence.
(D) In the case of less than 50 kilograms of
marihuana, except in the case of 50 or more
marihuana plants regardless of weight, 10
kilograms of hashish, or one kilogram of
hashish oil, such person shall, except as
provided in paragraphs (4) and (5) of this
subsection, be sentenced to a term of imprisonment of not more than 5 years, a fine not to
exceed the greater of that authorized in
accordance with the provisions of title 18 or
$250,000 if the defendant is an individual
or $1,000,000 if the defendant is other than
an individual, or both. If any person commits such a violation after a prior conviction for a felony drug offense has become
final, such person shall be sentenced to a
term of imprisonment of not more than 10
years, a fine not to exceed the greater of
twice that authorized in accordance with the
provisions of title 18 or $500,000 if the
defendant is an individual or $2,000,000 if
the defendant is other than an individual,
or both. Notwithstanding section 3583 of
title 18, any sentence imposing a term of
imprisonment under this paragraph shall,
in the absence of such a prior conviction,
impose a term of supervised release of at
least 2 years in addition to such term of
imprisonment and shall, if there was such a
prior conviction, impose a term of

App.65a
supervised release of at least 4 years in
addition to such term of imprisonment.
(E)
(i)

Except as provided in subparagraphs
(C) and (D), in the case of any controlled substance in schedule III, such
person shall be sentenced to a term of
imprisonment of not more than 10
years and if death or serious bodily
injury results from the use of such
substance shall be sentenced to a term
of imprisonment of not more than 15
years, a fine not to exceed the greater
of that authorized in accordance with
the provisions of title 18 or $500,000 if
the defendant is an individual or
$2,500,000 if the defendant is other
than an individual, or both.

(ii) If any person commits such a violation
after a prior conviction for a felony
drug offense has become final, such
person shall be sentenced to a term of
imprisonment of not more than 20
years and if death or serious bodily
injury results from the use of such
substance shall be sentenced to a term
of imprisonment of not more than 30
years, a fine not to exceed the greater
of twice that authorized in accordance
with the provisions of title 18 or
$1,000,000 if the defendant is an individual or $5,000,000 if the defendant is
other than an individual, or both.

App.66a
(iii) Any sentence imposing a term of
imprisonment under this subparagraph
shall, in the absence of such a prior
conviction, impose a term of supervised
release of at least 2 years in addition to
such term of imprisonment and shall, if
there was such a prior conviction, impose
a term of supervised release of at least
4 years in addition to such term of
imprisonment.
(2) In the case of a controlled substance in
schedule IV, such person shall be sentenced
to a term of imprisonment of not more than
5 years, a fine not to exceed the greater of
that authorized in accordance with the
provisions of title 18 or $250,000 if the
defendant is an individual or $1,000,000 if
the defendant is other than an individual,
or both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person
shall be sentenced to a term of imprisonment
of not more than 10 years, a fine not to
exceed the greater of twice that authorized
in accordance with the provisions of title 18
or $500,000 if the defendant is an individual
or $2,000,000 if the defendant is other than
an individual, or both. Any sentence imposing
a term of imprisonment under this paragraph
shall, in the absence of such a prior conviction,
impose a term of supervised release of at
least one year in addition to such term of
imprisonment and shall, if there was such a
prior conviction, impose a term of supervised

App.67a
release of at least 2 years in addition to
such term of imprisonment.
(3) In the case of a controlled substance in
schedule V, such person shall be sentenced
to a term of imprisonment of not more than
one year, a fine not to exceed the greater of
that authorized in accordance with the
provisions of title 18 or $100,000 if the
defendant is an individual or $250,000 if
the defendant is other than an individual,
or both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person
shall be sentenced to a term of imprisonment
of not more than 4 years, a fine not to
exceed the greater of twice that authorized
in accordance with the provisions of title 18
or $200,000 if the defendant is an individual
or $500,000 if the defendant is other than
an individual, or both. Any sentence imposing
a term of imprisonment under this paragraph
may, if there was a prior conviction, impose
a term of supervised release of not more
than 1 year, in addition to such term of
imprisonment.
(4) Notwithstanding paragraph (1)(D) of this
subsection, any person who violates subsection
(a) of this section by distributing a small
amount of marihuana for no remuneration
shall be treated as provided in section 844
of this title and section 3607 of title 18.
(5) Any person who violates subsection (a) of
this section by cultivating or manufacturing
a controlled substance on Federal property

App.68a
shall be imprisoned as provided in this
subsection and shall be fined any amount not
to exceed—
(A) the amount authorized in accordance
with this section;
(B) the amount authorized in accordance
with the provisions of title 18;
(C) $500,000 if the defendant is an individual; or
(D) $1,000,000 if the defendant is other
than an individual;
or both.
(6) Any person who violates subsection (a), or
attempts to do so, and knowingly or intentionally uses a poison, chemical, or other
hazardous substance on Federal land, and,
by such use—
(A) creates a serious hazard to humans,
wildlife, or domestic animals,
(B) degrades or harms the environment or
natural resources, or
(C) pollutes an aquifer, spring, stream, river,
or body of water,
shall be fined in accordance with title
18 or imprisoned not more than five
years, or both.
(7) Penalties for distribution—
(A) In general—

App.69a
Whoever, with intent to commit a crime
of violence, as defined in section 16 of
title 18 (including rape), against an
individual, violates subsection (a) by
distributing a controlled substance or
controlled substance analogue to that
individual without that individual’s
knowledge, shall be imprisoned not more
than 20 years and fined in accordance
with title 18.
(B) Definition—
For purposes of this paragraph, the
term “without that individual’s knowledge” means that the individual is unaware that a substance with the ability
to alter that individual’s ability to
appraise conduct or to decline participation in or communicate unwillingness
to participate in conduct is administered
to the individual.
(c) Offenses Involving Listed Chemicals
Any person who knowingly or intentionally—
(1) possesses a listed chemical with intent to
manufacture a controlled substance except
as authorized by this subchapter;
(2) possesses or distributes a listed chemical
knowing, or having reasonable cause to
believe, that the listed chemical will be used
to manufacture a controlled substance except
as authorized by this subchapter; or

App.70a
(3) with the intent of causing the evasion of the
recordkeeping or reporting requirements of
section 830 of this title, or the regulations
issued under that section, receives or distributes a reportable amount of any listed
chemical in units small enough so that the
making of records or filing of reports under
that section is not required;
shall be fined in accordance with title 18 or
imprisoned not more than 20 years in the case of
a violation of paragraph (1) or (2) involving a list
I chemical or not more than 10 years in the case
of a violation of this subsection other than a violation of paragraph (1) or (2) involving a list I
chemical, or both.
(d) Boobytraps on Federal Property; Penalties;
“Boobytrap” Defined
(1) Any person who assembles, maintains, places,
or causes to be placed a boobytrap on Federal
property where a controlled substance is being
manufactured, distributed, or dispensed shall be
sentenced to a term of imprisonment for not more
than 10 years or fined under title 18, or both.
(2) If any person commits such a violation after
1 or more prior convictions for an offense
punishable under this subsection, such person
shall be sentenced to a term of imprisonment of
not more than 20 years or fined under title 18,
or both.
(3) For the purposes of this subsection, the term
“boobytrap” means any concealed or camouflaged
device designed to cause bodily injury when

App.71a
triggered by any action of any unsuspecting
person making contact with the device. Such
term includes guns, ammunition, or explosive
devices attached to trip wires or other triggering
mechanisms, sharpened stakes, and lines or
wires with hooks attached.
(e) Ten-year injunction as additional penalty
In addition to any other applicable penalty, any
person convicted of a felony violation of this
section relating to the receipt, distribution, manufacture, exportation, or importation of a listed
chemical may be enjoined from engaging in any
transaction involving a listed chemical for not
more than ten years.
(f) Wrongful distribution or possession of listed
chemicals
(1) Whoever knowingly distributes a listed
chemical in violation of this subchapter (other
than in violation of a recordkeeping or reporting
requirement of section 830 of this title) shall,
except to the extent that paragraph (12), (13), or
(14) of section 842(a) of this title applies, be
fined under title 18 or imprisoned not more than
5 years, or both.
(2) Whoever possesses any listed chemical, with
knowledge that the recordkeeping or reporting
requirements of section 830 of this title have not
been adhered to, if, after such knowledge is
acquired, such person does not take immediate
steps to remedy the violation shall be fined under
title 18 or imprisoned not more than one year, or
both.

App.72a
(g) Internet sales of date rape drugs
(1) Whoever knowingly uses the Internet to distribute a date rape drug to any person, knowing
or with reasonable cause to believe that—
(A) the drug would be used in the commission
of criminal sexual conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this subchapter or
imprisoned not more than 20 years, or
both.
(2) As used in this subsection:
(A) The term “date rape drug” means—
(i)

gamma hydroxybutyric acid (GHB) or
any controlled substance analogue of
GHB, including gamma butyrolactone (GBL)
or 1,4–butanediol;

(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney
General designates, pursuant to the
rulemaking procedures prescribed by
section 553 of title 5, to be used in
committing rape or sexual assault.
The Attorney General is authorized to
remove any substance from the list of
date rape drugs pursuant to the same
rulemaking authority.
(B) The term “authorized purchaser” means any
of the following persons, provided such

App.73a
person has acquired the controlled substance in accordance with this chapter:
(i)

A person with a valid prescription that
is issued for a legitimate medical purpose in the usual course of professional
practice that is based upon a qualifying
medical relationship by a practitioner
registered by the Attorney General. A
“qualifying medical relationship” means
a medical relationship that exists when
the practitioner has conducted at least
1 medical evaluation with the authorized purchaser in the physical presence
of the practitioner, without regard to
whether portions of the evaluation are
conducted by other heath [1] professionals. The preceding sentence shall
not be construed to imply that 1 medical evaluation demonstrates that a
prescription has been issued for a legitimate medical purpose within the usual
course of professional practice.

(ii) Any practitioner or other registrant
who is otherwise authorized by their
registration to dispense, procure, purchase, manufacture, transfer, distribute, import, or export the substance
under this chapter.
(iii) A person or entity providing documentation that establishes the name,
address, and business of the person or
entity and which provides a legitimate
purpose for using any “date rape drug”
for which a prescription is not required.

App.74a
(3) The Attorney General is authorized to
promulgate regulations for record-keeping and
reporting by persons handling 1,4–butanediol in
order to implement and enforce the provisions of
this section. Any record or report required by
such regulations shall be considered a record or
report required under this chapter.
(h) Offenses involving dispensing of controlled
substances by means of the Internet
(1) In general
It shall be unlawful for any person to knowingly
or intentionally—
(A) deliver, distribute, or dispense a controlled
substance by means of the Internet, except
as authorized by this subchapter; or
(B) aid or abet (as such terms are used in
section 2 of title 18) any activity described
in subparagraph (A) that is not authorized
by this subchapter.
(2) Examples
Examples of activities that violate paragraph (1)
include, but are not limited to, knowingly or
intentionally—
(A) delivering, distributing, or dispensing a controlled substance by means of the Internet
by an online pharmacy that is not validly
registered with a modification authorizing
such activity as required by section 823(f) of
this title (unless exempt from such registration);

App.75a
(B) writing a prescription for a controlled substance for the purpose of delivery, distribution, or dispensation by means of the
Internet in violation of section 829(e) of this
title;
(C) serving as an agent, intermediary, or other
entity that causes the Internet to be used to
bring together a buyer and seller to engage
in the dispensing of a controlled substance
in a manner not authorized by sections [2]
823(f) or 829(e) of this title;
(D) offering to fill a prescription for a controlled
substance based solely on a consumer’s
completion of an online medical questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or representation in a
notification or declaration under subsection
(d) or (e), respectively, of section 831 of this
title.
(3) Inapplicability
(A) This subsection does not apply to—
(i)

the delivery, distribution, or dispensation of controlled substances by nonpractitioners to the extent authorized
by their registration under this subchapter;

(ii) the placement on the Internet of material that merely advocates the use of a
controlled substance or includes pricing
information without attempting to pro-

App.76a
pose or facilitate an actual transaction
involving a controlled substance; or
(iii) except as provided in subparagraph
(B), any activity that is limited to—
(I)

the provision of a telecommunications service, or of an Internet
access service or Internet information location tool (as those terms
are defined in section 231 of title
47); or

(II) the transmission, storage, retrieval,
hosting, formatting, or translation
(or any combination thereof) of a
communication, without selection
or alteration of the content of the
communication, except that deletion
of a particular communication or
material made by another person
in a manner consistent with section
230(c) of title 47 shall not constitute
such selection or alteration of the
content of the communication.
(B) The exceptions under subclauses (I) and (II)
of subparagraph (A)(iii) shall not apply to a
person acting in concert with a person who
violates paragraph (1).
(4) Knowing or intentional violation
Any person who knowingly or intentionally
violates this subsection shall be sentenced in
accordance with subsection (b).

App.77a
21 U.S.C § 846
Attempt and Conspiracy
Any person who attempts or conspires to commit
any offense defined in this subchapter shall be
subject to the same penalties as those prescribed
for the offense, the commission of which was the
object of the attempt or conspiracy.

